fan
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 20-828

FEDERAL BUREAU OF INVESTIGATION, ET AL.,

Petitioners,
v.
YASSIR FAZAGA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF ASIAN

AMERICANS ADVANCING JUSTICE-ASIAN LAW CAUCUS,
ENFORCEMENT ACCOUNTABILITY AND RESPONSIBILITY,

CREATING LAW

CENTER FOR

CONSTITUTIONAL RIGHTS, AMERICAN-ARAB ANTI-DISCRIMINATION COMMITTEE,
AMERICAN MUSLIM BAR ASSOCIATION, PARTNERSHIP FOR THE ADVANCEMENT OF
NEW AMERICANS, AND SECURE JUSTICE AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 7993 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of September, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL HOTARY State of Mebraska ) dia wv Chk
RENEE J. GOSS 9. ยง
Notary Public

41482
